                                        OFFICE OF INSPECTOR GENERAL
                                                                MEMORANDUM




DATE:          April 5, 2004

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Audit of the E-rate Program at Children’s Storefront School

The Office of Inspector General (OIG) has completed an audit at Children’s Storefront
School (Children’s), a beneficiary of the Universal Service Fund (USF). A copy of our
audit report no. 02-AUD-02-04-025, entitled “Report on Audit of the E-rate Program at
Children’s Storefront School” is attached. The objective of this audit was to assess the
beneficiary’s compliance with the rules and requirements of the USF program and to
identify program areas which may need improvement.

We concluded that Children’s was not compliant with the requirements of the program
for funding year 2000. The audit resulted in four (4) specific findings and $491,447
identified as potential fund recoveries. The potential fund recovery is 100% of the funds
paid out for internal connections and internet access. The primary factor in our
recommendation for 100% recovery is that Children’s did not pay their non-discounted
portion of the costs. However, there are potential recoveries associated with other
findings, as detailed in the attached report. We recommend that the Wireline
Competition Bureau direct the Universal Service Administrative Company (USAC) to
recover the full amount of $491,447 disbursed on behalf of Children’s in funding year
2000. In addition, we recommend that the Wireline Competition Bureau take steps to
ensure that funding requests are adequately reviewed in accordance with existing
program rules and implementing procedures to make certain that funding requests
associated with these areas of noncompliance with program rules and regulations are not
approved. Further, we recommend that the Wireline Competition Bureau review those
program rules and implementing procedures governing the areas of noncompliance cited
in this report to ensure that those program rules and implementing procedures are
adequate to protect the interests of the fund.

We held an exit conference on February 26, 2004 with the beneficiary’s representatives,
and requested their comments on the results of the audit. They concurred with two of the
four audit findings, did not concur with one finding, and were unable to state whether
Report on Audit of the E-rate Program at Children’s Storefront School



                                      Table of Contents


                                                                        Page


EXECUTIVE SUMMARY                                                         1


BACKGROUND INFORMATION                                                    2


AUDIT OBJECTIVES AND SCOPE                                                3


AUDIT FINDINGS AND RECOMMENDATIONS                                        3


OTHER MATTER                                                              7


APPENDIX 1 – Auditee Response
APPENDIX 2 – Management Response
Report on Audit of the E-rate Program at Children’s Storefront School


EXECUTIVE SUMMARY

On May 7, 1997, the FCC adopted a Universal Service Order implementing the
Telecommunications Act of 1996. Included in this Order was the Schools and Libraries
Support Mechanism of the USF (hereinafter known as the E-rate program) in which all
eligible schools and libraries can receive discounts from the USF on eligible
communication services ranging from 20 to 90 percent, depending on economic need
and location. The OIG has designed a program of audit oversight to provide FCC
management with a reasonable level of assurance that beneficiaries are complying with
program rules and that program controls are adequate to prevent fraud, waste and
abuse.

The OIG has completed an audit of Children’s Storefront School (Children’s). The
objective of this audit was to assess the beneficiary’s compliance with the rules and
regulations of the USF program and to identify areas in which to improve the program.
Children’s is an independent, tuition free school located in the Harlem section of New
York City. Children’s teaches pre-kindergarten to 8th grade classes. Based on its
application filed with the Schools and Libraries Division (SLD) of the Universal
Service Administrative Company (USAC), Children’s reported that it had 158 students
in Funding Year (FY) 2000 and was approved and received funding at an urban
discount rate of 90% for FY 2000. The period of our audit was for FY 2000 covering
July 1, 2000 to June 30, 2001.

For FY 2000 Children’s had an approved commitment of $512,734 of which $494,991
(representing 96.5% of the approved commitment) was approved for installation and
maintenance of internal connections and Internet access. For FY 2000 SLD disbursed
$491,447 for internal connections and Internet access.

The audit resulted in four (4) specific findings and $491,447 identified as potential fund
recoveries. The potential fund recovery is 100% of the funds paid out for internal
connections and internet access. The primary factor in our recommendation for 100%
recovery is that Children’s did not pay their non-discounted portion of the costs. We
recommend that the Wireline Competition Bureau direct the Universal Service
Administrative Company (USAC) to recover the full amount of $491,447 disbursed on
behalf of Children’s in funding year 2000. In addition, we recommend that the
Wireline Competition Bureau take steps to ensure that funding requests are adequately
reviewed in accordance with existing program rules and implementing procedures to
ensure that funding requests associated with these areas of noncompliance with
program rules and regulations are not approved. Further, we recommend that the
Wireline Competition Bureau review those program rules and implementing procedures
governing the areas of noncompliance cited in this report to ensure that those program
rules and implementing procedures are adequate to protect the interests of the fund.

We held an exit conference on February 26, 2004 with the beneficiary’s
representatives, and requested their comments on the results of the audit. They

                                            1

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


concurred with two of the four audit findings, did not concur with one finding, and
were unable to state whether they concurred or not on another finding. They provided a
written response to the audit findings, which is included in Appendix 1 to this report.

We provided management with a copy of our draft report on March 19, 2004 and
requested they provide comments on their concurrence with the findings of the audit.
In a response dated March 30, 2004, the Wireline Competition Bureau (WCB)
indicated that they concurred with our three audit recommendations. WCB’s response
is included in its entirety in Appendix 2 to this report.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General (OIG) at the Federal Communications Commission (FCC) has
oversight responsibilities for the Universal Service Fund (USF) as a federal program of
the FCC. The USF provides affordable access to specified communications services for
schools, libraries, rural health care providers, low-income consumers and companies
serving high-cost areas. On May 7, 1997, the FCC adopted a Universal Service Order
implementing the Telecommunications Act of 1996. Included in this Order was the
Schools and Libraries Funding Mechanism of the USF (hereinafter known as the E-rate
program) in which all eligible schools and libraries can receive discounts from the USF
on eligible communication services ranging from 20 to 90 percent, depending on
economic need and location. The Universal Service Administrative Company (USAC)
is responsible for administering the Fund under the direction of the FCC’s Wireline
Competition Bureau (WCB). The Schools and Libraries Division (SLD) of USAC
administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

Children’s is an independent, tuition free school located in the Harlem section of New
York City. Children’s teaches pre-kindergarten to 8th grade classes. Based on its
application filed with the Schools and Libraries Division (SLD) of the Universal
Service Administrative Company (USAC), Children’s reported that it had 158 students
in Funding Year (FY) 2000 and was approved and received funding at an urban
discount rate of 90% for FY 2000.

For FY 2000 Children’s had an approved commitment of $512,734 of which $494,991
(representing 96.5% of the approved funding commitment) was approved for




                                           2

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


installation and maintenance of internal connections and Internet access. For FY 2000
SLD disbursed $491,447 for internal connections and Internet access.

AUDIT OBJECTIVES AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. The objective of
this audit was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the program.

The scope of this audit was designed to test beneficiary compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) which provide that:

•   The beneficiary determines its discount percentage by the percentage of their
    student enrollment that is eligible for a free or reduced price lunch under the
    national school lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider.
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted service
    for which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our audit was for FY 2000 covering July 1, 2000 to June 30, 2001.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our audit, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited
purposes of our audit would not necessarily disclose all material weaknesses in the
control structure. However, we identified significant management weaknesses as
discussed in the Audit Results section of this report and in Finding Numbers 1 and 4.

AUDIT FINDINGS AND RECOMMENDATIONS

Our audit of the use of E-rate funds at Children’s disclosed that the beneficiary was not
compliant with the requirements of the program for funding year 2000. The following
findings resulted in noncompliant and/or inappropriate funding disbursements:


                                            3

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School



   1. The beneficiary did not pay the non-discounted portion of the costs for internal
      connections and internet access.
   2. The service provider billed and received payment for recurring maintenance
      costs that were not provided during the funding year, resulting in an
      overpayment of $28,014.
   3. The service provider billed and received payment for internet access costs that
      were not provided during the funding year, resulting in an overpayment of
      $20,412.
   4. There was no documented competitive bidding process.

   Additionally, we have reported as an Other Matter that the system we observed at
   Children’s appeared to be underutilized.

AUDIT FINDINGS

Finding 1 of 4 - Children’s Failed to Pay the Non-discounted Portion of E-rate Costs for
Internal Connections and Internet Access.

Children’s provided several documents to support their payment of the non-discounted
portion of the costs of internal connections and internet access; however, our auditors
did not find the information to be reliable. Initially, Children’s offered a letter from the
Gilder Foundation, a private foundation that provides funds for libraries at private
schools that described a pledge of $58,000 for a library project. However, a
representative of the Gilder Foundation informed us that they only fund libraries and
would not make a grant in support of an E-rate project. Children’s subsequently
provided copies of two checks to support payment of their share. These checks were
written against an account in the names of an unpaid consultant assisting Children’s in
their E-rate application process and an unknown party and signed by the consultant.
Both checks were dated September 28, 2001; one was in the amount of $52,731 and the
other was in the amount of $2,268. The checks were payable to Connect2 Internet, the
service provider and both had a memo notation “Donation to Children’s Store Front
School for E-rate”.

We noted that, while the checks were stamped “For Deposit Only” to Connect2’s
account and a copy of a deposit slip was provided, the checks were missing certain
marks that would indicate they had been cleared by the bank that held the account. We
were unable to contact either of the parties named on the checks to discuss these
checks, but we are not convinced that they support payment of Children’s portion of the
E-rate costs. Further, we do not believe that, had these checks been written and cashed
for the purposes purported, they would constitute adequate payment by Children’s of
the non-discounted portion.




                                             4

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


The FCC, in Universal Service Order CC Docket 96-45 (FCC97-157,) stated that
requiring applicants to pay their share would ensure efficiency and accountability in the
program. Paragraph 493 of the Order states:

    Requiring schools and libraries to pay a share of the cost should encourage them to
    avoid unnecessary and wasteful expenditures because they will be unlikely to
    commit their own funds for purchases they cannot use effectively. A percentage
    discount also encourages schools and libraries to seek the best pre-discount price
    and to make informed, knowledgeable choices among their options, thereby
    building in effective fiscal constraints on the account fund.

Children’s’ failure to account and pay for its share of the non-discounted portion of E-
rate services as certified on Form 471 Service Ordered and Certification Form, Block 6,
Item 22, is not in compliance with program rules and requirements.

In response to the exit conference, Children’s stated they were unable to state whether
they concurred with this finding or not. They believed that payment of their share had
been made.

We have been advised by the Wireline Competition Bureau that a beneficiary’s failure
to pay the non-discounted portion of E-rate costs is a rule violation that supports full
recovery of funds disbursed.

Finding 2 of 4 - The Service Provider Billed for Recurring Maintenance Services That Were
Not Provided.

For FY 2000, Connect 2 billed SLD for the full 12-month period for maintenance of the
network and PBX phone system installed at Children’s. We found that the service
provider should have prorated the maintenance charges to be commensurate with the
time period that these systems became operational. We were provided a copy of a report
from Connect2 entitled “CAT5E & Fiber Cable Test Results” dated September 4, 2001;
over a month after the funding year ended. No documentation was provided to support
that the system was available prior to the date of this report. Consequently, we conclude
that Connect 2 billed SLD $28,014 for maintenance services that were not provided in FY
2000.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider provide the products and services and bill
the school or library prior to submitting a FCC Form 474 to USAC/SLD. In addition,
the FCC Rules in Title 47 CFR 54.507 (b) states that a funding year for purposes of the
schools and libraries cap shall be the period July 1 through June 30; and Section
54.507(e) states that if schools and libraries enter into long term contracts for eligible
services, the Administrator (USAC/SLD) shall only commit funds to cover the pro rata

                                            5

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


portion of such a long term contract scheduled to be delivered during the funding year
for which universal service support is sought. Connect 2 over-billed SLD for 100% of
the maintenance service costs as these services were not provided to Children’s during
FY 2000 and therefore was not in compliance with program rules and requirements.
In response to the exit conference, Children’s stated that Connect 2 began working on
their system in the spring of 2001 and began providing maintenance services at that
point. However they are not able to provide documentation to support this. Absent
documentation and evidence that the system was installed and working (in lieu of being
installed) prior to the date of Connect 2’s test report, we do not find that Children’s
comments support revising our audit position.

Finding 3 of 4 - The Service Provider Billed for Internet Access Services That Were Not
Provided.

For FY 2000, Connect 2 billed SLD for the full 12-month period for internet access at
Children’s. We found that the service provider should have prorated the access charges
to be commensurate with the time period that these systems became operational. We
were provided a copy of a report from Connect2 entitled “CAT5E & Fiber Cable Test
Results” dated September 4, 2001; over a month after the funding year ended. No
documentation was provided to support that the system was available prior to the date of
this report. Consequently, we conclude that Connect 2 billed SLD $20,412 for internet
access services that were not provided in FY 2000.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider provide the products and services and bill
the school or library prior to submitting a FCC Form 474 to USAC/SLD. In addition,
the FCC Rules in Title 47 CFR 54.507 (b) states that a funding year for purposes of the
schools and libraries cap shall be the period July 1 through June 30; and Section
54.507(e) states that if schools and libraries enter into long term contracts for eligible
services, the Administrator (USAC/SLD) shall only commit funds to cover the pro rata
portion of such a long term contract scheduled to be delivered during the funding year
for which universal service support is sought. Connect 2 over-billed SLD for 100% of
the internet access costs as these services were not provided to Children’s during FY
2000 and therefore was not in compliance with program rules and requirements.

In response to the exit conference, Children’s concurred with this finding.

Finding 4 of 4 - Undocumented Competitive Bidding Process.

Children’s was not able to provide any evidence of a competitive bidding process. No
documentation supporting the award decision for services requested on its Form 470 for
FY 2000 was provided.



                                            6

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


Title 47 CFR 54.504, Requests for Service (a) competitive bidding requirement,
provides that all eligible schools, libraries and consortia including those entities shall
participate in a competitive bidding process, pursuant to the requirement established in
this subpart, but this requirement will not preempt state or local competitive bidding
requirements. Section 54.511, Ordering Service, (a) Selecting a provider of eligible
services, provides that in selecting a provider of eligible services, schools, libraries and
consortia including any of those entities shall carefully consider all bids submitted and
may consider relevant factors other than the pre-discounted prices submitted by
providers. Children’s was not able to provide documents that would support the
soundness of their management of the E-rate funding or compliance with Title 47 CFR
54.504 and 511.

In response to the exit conference, Children’s concurred with this finding.

RECOMMENDATIONS

Recommendation 1 of 3 – We recommend that the Wireline Competition Bureau direct
the Universal Service Administrative Company to recover the full amount of $491,447
disbursed for internal connections and internet access on behalf of Children’s in
funding year 2000.

Recommendation 2 of 3 - We recommend that the Wireline Competition Bureau take
steps to ensure that funding requests are adequately reviewed in accordance with
existing program rules and implementing procedures to ensure that funding requests
associated with these areas of noncompliance with program rules and regulations are
not approved.

Recommendation 3 of 3 - We recommend that the Wireline Competition Bureau review
those program rules and implementing procedures governing the areas of
noncompliance cited in this report to ensure that those program rules and implementing
procedures are adequate to protect the interests of the fund.

OTHER MATTER

Children’s utilization of the assets purchased with E-rate funding appears to be
minimal. Three servers were purchased and installed, however, during the course of
our fieldwork, only one of these servers was in operation. Connect2 installed 136 wire
drops at Children’s; 25 voice drops and 111 data drops. With the exception of seven
drops in the computer room, none of the remaining data drops were in use at the time of
our fieldwork.

We believe that the assets purchased for Children’s are underutilized. Further, we note
that the amount of internal connections funding disbursed and the number of students at
Children’s results in an average cost of approximately $3,100 per student. Our
experience indicates this is an excessive level of funding.

                                             7

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School



Since this is not a rule violation we have not cited this as an audit finding. However,
we do consider it to be a matter of interest and suggest that the WCB consider ways to
ensure E-rate funded systems are commensurate with the needs of the school being
funded. Note that Children’s states they do not concur with this matter. They claim
that on the day of our visit the servers were down due to a virus and that they are
currently using more than 70% of their wire drops. Since we have not cited this matter
as an audit finding, we will not comment further other than to note that, as stated above,
on the date of our field visit only seven of 111 data drops were in use.




                                            8

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


         FEDERAL COMMUNICATIONS
               COMMISSION

               OFFICE OF INSPECTOR GENERAL




               Report on Audit of the E-Rate Program at
                     Children’s Storefront School

                         Report No. 02-AUD-02-04-25

                       APPENDIX 1 – Auditee Response




                                          9

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at Children’s Storefront School


         FEDERAL COMMUNICATIONS
               COMMISSION

               OFFICE OF INSPECTOR GENERAL




               Report on Audit of the E-Rate Program at
                     Children’s Storefront School

                         Report No. 02-AUD-02-04-25

                    APPENDIX 2 – Management Response




                                         10

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
